No. 20A-

IN THE SUPREME COURT OF THE UNITED STATES

DONALD J. TRUMP
v.

CYRUS R. VANCE, JR., IN HIS OFFICIAL CAPACITY AS DISTRICT
ATTORNEY OF THE COUNTY OF NEW YORK, ET AL.,

CERTIFICATE OF SERVICE

I, Sarah Walsh, a member of the bar of this Court, hereby certify, that on this
15th day of July, 2020 the within Application for Issuance of a Copy of the Opinion

and Certified Copy of the Judgment Forthwith in the above-captioned matter was

served upon:

Jay Alan Sekulow

Constitutional Litigation and Advocacy Group, P.C.
1701 Pennsylvania Avenue, NW, Suite 200
Washington, DC 20006

212-546-8890

jsekulow@claglaw.com

Counsel of Record for Petitioner
Jerry D. Bernstein

Blank Rome LLP

1271 Avenue of the Americas

New York, NY 10020

212-885-5511

jbernstein@blankrome.com

Counsel of Record for Respondent Mazars, USA, LLP

via electronic mail in accordance with this Court’s April 15, 2020 Order. All parties
have consented to service via electronic mail.

All parties required to be served have been served.

ir 7 ) A
Sar alsh
New York County District
Attorney’s Office
One Hogan Place
New York, NY 10013
(212) 335-9000

On Behalf of Respondent Vance
